                             SOCIAL SECURITY
                              Office of the Inspector General

                                   October 3, 2001


The Honorable Charles E. Grassley
Ranking Minority Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

In response to your August 6, 2001 letter to Acting Commissioner Massanari and
myself, the Social Security Administration (SSA), Office of the Inspector General is
pleased to provide you with the requested information related to Social Security number
(SSN) misuse.

As you are aware, my office is charged with preventing and detecting fraud, waste and
abuse in Social Security programs and operations. Because the misuse of an SSN falls
within that mandate, we are well acquainted with the SSN misuse and identity theft
phenomena. In recent years, as these phenomena have grown exponentially, we have
worked with SSA, Congress, other Government entities, as well as the public, to stem
the tide of SSN misuse and, if one is optimistically inclined, begin a trend in the opposite
direction. Nevertheless, we recognize that much work needs to be done within SSA,
and some very difficult decisions will have to be made by Congress before we can make
meaningful headway in the war against SSN misuse.

In responding to most of the questions you posed, we relied on information developed in
past audits, evaluations and investigations. For the remaining questions, we obtained
data through interviews of SSA representatives and analysis of information provided by
these sources.

The enclosed report contains our insights and conclusions regarding the following
subjects:

   •   Assignment and issuance of SSNs,
   •   Undeliverable SSN cards,
   •   Earnings records and the Earnings Suspense File,
   •   Programs/operations with the most incidences of SSN misuse,
   •   Employee SSN misuse cases,
   •   Proper use and dissemination of the SSN,



           SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
Page 2 -The   Honorable   Charles   E. Grassley

   .   Coordination with other Federal agencies,
   .   Preventative measures to stop SSN misuse, and
   .   Data~matching efforts.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Richard A. Rohde, Special Agent-in-Charge for External Affairs,
at (410) 966-1722.

                                                  Sincerely,



                                                  1---
                                                  James G. Huse, Jr.
                                                  Inspector General of Social Security

Enclosure
  CONGRESSIONAL RESPONSE
         REPORT

      SSN Misuse: A Challenge
For the Social Security Administration
               A-08-02-22030




             OCTOBER 2001
                                                         Background
In 1935, the Social Security Act authorized the creation of the Social Security number
(SSN) as part of a new system to track the earnings of employed Americans. Despite
the narrowly drawn purpose of this nine-digit number, use of the SSN as a general
identifier in record systems eventually grew. In 1967, the Department of Defense
abandoned the military identification number in favor of the SSN for armed forces
personnel. In the 34 years since, the myriad uses of the SSN have continued to
expand.

Misuse of the SSN, catalyzed by the Internet, has quickly become a national dilemma.
The SSN’s universality has become its own worst enemy. The power it wields―power
to engage in financial transactions, power to obtain personal information, power to
create or commandeer identities―makes it a valuable asset and one that is subject to
limitless abuse. For example, in Fiscal Year (FY) 2000, the Office of the Inspector
General (OIG) received 92,847 allegations of fraud, waste, or abuse. Over half of
these, 46,840, were allegations of SSN misuse, and another 43,456 were allegations of
program fraud, which experience has shown often includes implications of SSN misuse.




SSN Misuse: A Challenge for SSA                                                      1
                                          Results of Review
On August 6, 2001, Senator Charles E. Grassley, Ranking Member, Senate Finance
Committee, issued a letter to the Acting Commissioner of Social Security and the
Inspector General of the Social Security Administration (SSA.) In this letter, Senator
Grassley requested that SSA and the OIG conduct independent assessments of “SSA’s
programs and operations with the goal of minimizing opportunities for SSN misuse at its
administrative core.” Senator Grassley specifically requested that the two organizations
provide assessments of nine distinct elements. These elements and OIG’s insights and
conclusions follow.

1. Evaluate Whether SSA’s Enumeration Business Process is
   Sufficient to Ensure the Proper Assignment and Issuance of SSNs.
Over the past several years, SSA’s OIG has issued numerous reports in which we
highlighted certain vulnerabilities within the Agency’s enumeration business process
that allow the improper assignment of SSNs. We are confident SSA has given careful
consideration to these vulnerabilities and, to its credit, has expeditiously implemented
many of the recommendations made in our reports. However, there are a number of
recommendations that the Agency disagreed with or that have yet to be implemented.
As a result, we believe there are still vulnerabilities within the enumeration system that
allow the improper assignment and issuance of SSNs. We believe the following areas
continue to be weaknesses in SSA’s enumeration process.

EVIDENTIARY DOCUMENTS PRESENTED WITH SSN APPLICATIONS

When an individual applies for an original SSN, SSA requires the applicant to provide
acceptable documentary evidence of age, identity, and United States citizenship or
lawful alien status. When applying for a replacement SSN, the applicant must provide
evidence of identity and, if applicable, lawful alien status. Reliable evidentiary
documentation is crucial to ensuring the proper assignment of SSNs. Unfortunately,
given the technological advances in today’s society, motivated individuals can
counterfeit official documents with surprising accuracy. In fact, through our audits,
evaluations and investigations, we have detected SSNs issued to individuals based on
counterfeit evidentiary documents.

To effectively foil the efforts of these individuals and reduce the occurrences of improper
SSN attainment, we recommended that SSA employ effective front-end controls in its
enumeration process. The Agency accepted many of these recommendations and has
initiated, or is in the implementation planning process for, most of our proposed
corrective actions. However, SSA elected not to implement one recommendation that it
believed would be administratively burdensome and negatively impact customer
service.


SSN Misuse: A Challenge for SSA                                                         2
Specifically, we recommended that SSA obtain independent verification from the issuing
Agency (e.g., Immigration and Naturalization Service (INS), State Department) for all
evidentiary documents submitted by noncitizens before issuing an original SSN. Our
audits, evaluations and investigations have indicated that documents presented by
some noncitizens are problematic. Additionally, we concluded SSA’s current verification
process is not sufficient to ensure the validity of evidentiary documents presented by
noncitizens. For example, in one audit, we found that 999 of the 3,557 original SSN
applications reviewed were approved based on improper evidentiary documentation.1
We acknowledge that this is not the case with the majority of noncitizen documents.
However, our experience has shown that the error rate is significant enough to warrant
increased verification of these documents.

SSA is working with INS and the State Department on a program that would provide for
the enumeration of noncitizens at the port of entry (“Enumeration at Entry” program).
We believe that this program will be extremely beneficial once fully implemented.
However, we are concerned that full implementation could be years away. We continue
to believe SSA should not issue SSNs until evidentiary evidence submitted by
noncitizens has been validated. This recommendation is essential, not only to prevent
SSN misuse and identity theft, but to help ensure that unauthorized noncitizens do not
readily assimilate themselves in everyday American life with an improperly obtained
SSN.

CONTROLS WITHIN SSA’S MODERNIZED ENUMERATION SYSTEM

SSA’s assignment of an SSN is dependent on the processing of SSN applications
through SSA’s Modernized Enumeration System (MES). When an application is
entered in MES, the program processes the information and performs various
automated edits including a determination of whether the applicant has previously
obtained an SSN. If these edits are passed, the system assigns an SSN and a card is
issued to the applicant.

Through previous audit work, we determined that edits within MES could be enhanced
to provide more reliable results. For example, in a recent audit, we identified instances
in just 4 States in which SSA assigned multiple SSNs to 178 infants. These instances
occurred because MES edits did not recognize the applications as duplicate.2 In many
of these cases, only one or two letters were different in the applicants’ name.

In addition to enhancing existing edits, we have recommended that SSA incorporate
preventive controls in MES to stop the assignment and issuance of SSNs when the
system detects the following occurrences.


1
 SSA/OIG report entitled Procedures for Verifying Evidentiary Documents Submitted With Original Social
Security Number Applications, September 2000 (A-08-98-41009).
2
 SSA/OIG report entitled Review of Enumeration at Birth Program, September 2001
(A-08-00-10047).


SSN Misuse: A Challenge for SSA                                                                   3
•   Over a specified period of time, SSA issued multiple SSNs cards to the same
    address.

•   Over a specified period of time, parents claimed to have had an unusually large
    number of children.

•   Known fraudulent documentation is presented as evidence in support of an SSN
    application.

Current edits addressing these issues concentrate on the detection of fraud after it has
already occurred. Unfortunately, once an SSN has been issued, SSA has little ability to
prevent or curtail the use of that SSN in committing further fraud. Accordingly, SSA is in
the process of incorporating some of these edits in MES. However, full implementation
may take several years. We believe that these enhancements should be accelerated
and that if funding is an issue the Agency should identify the resource requirements.

LIMITATIONS ON THE NUMBER OF REPLACEMENT SSN CARDS OBTAINED

Because many cases of identity fraud involve improperly obtained replacement cards,
we believe SSA needs to develop a combination of regulations and system controls to
limit the number of replacement SSN cards an individual can receive during a specified
period. In a recent audit, we determined that 192 individuals obtained 6 or more
replacement SSN cards during a 1-year period. 3 Through examination, we concluded
that over 100 of these individuals appeared to be misusing their SSNs. Under current
SSA policy, any individual can obtain up to 52 replacement SSN cards in a year.
Although we recognize there could be extraordinary occurrences in which an individual
might have a need for several SSN cards, we believe this should be the exception.
Accordingly, we believe SSA should establish a reasonable threshold for the number of
replacement SSN cards an individual may obtain during a year and over a lifetime. SSA
should then implement controls within its system requiring management personnel to
approve any applications exceeding this limit.

TRAINING AND QUALITY REVIEWS FOR SSA EMPLOYEES

Well-trained employees are as important to the enumeration process as procedures and
systems. Based on recent audits, we believe SSA field office employees would benefit
from educational reinforcement through training and quality reviews of SSN processing.
Specifically, we have recommended that SSA should:

•   Re-emphasize the importance of following enumeration policies and procedures
    associated with the issuance of original and replacement SSN cards, including the



3
 SSA/OIG report entitled Replacement Social Security Number Cards: Opportunities to Reduce the Risk
of Improper Attainment and Misuse, September 2001 (A-08-00-10061.)



SSN Misuse: A Challenge for SSA                                                                 4
    requirement to independently verify INS documents when indicated by SSA policy
    and the Systematic Alien Verification for Entitlements (SAVE) program.4

•   Conduct periodic quality reviews of processed SSN applications and provide timely
    feedback to field office personnel.5

•   Test field office employee compliance with procedures for issuing replacement SSN
    cards when performing periodic enumeration quality reviews. Additional training
    and/or supervision should be provided to employees if necessary.6

•   Instruct field office personnel to exercise greater care when resolving enumeration
    feedback messages generated by the system.7

•   Require field office personnel to document the basis of all resolution actions taken
    on enumeration feedback messages for an appropriate period of time to facilitate
    management review.8

•   Require FO management to perform periodic quality reviews of processed
    enumeration feedback messages and provide appropriate feedback and related
    training to FO personnel.9

2. Determine How Many SSNs SSA Cannot Account For in the Past
   Five (5) Years, and Evaluate How SSA Can Improve Its Accounting
   Methods in the Future.
Because we have performed no audit work in this area, we defer to SSA on this
question.

Our FY 2002 Annual Audit Plan does include an assignment to determine whether
adequate security and controls exist for the mailing of SSN cards. Preliminary research
indicates that SSA does not track the number of SSN cards returned to the Agency as
undeliverable. Rather, the returned cards are kept in a secure container in the

4
 SSA/OIG report entitled Replacement Social Security Number Cards: Opportunities to Reduce the Risk
of Improper Attainment and Misuse, September 2001 (A-08-00-10061.)
5
 SSA/OIG report entitled Review of Controls over Nonwork Social Security Numbers, September 1999
(A-08-97-41002).
6
 SSA/OIG report entitled Replacement Social Security Number Cards: Opportunities to Reduce the Risk
of Improper Attainment and Misuse, September 2001 (A-08-00-10061.)
7
 SSA/OIG report Effectiveness of Internal Controls in the Modernized Enumeration System, September
2000 (A-08-97-41003).
8
 SSA/OIG report Effectiveness of Internal Controls in the Modernized Enumeration System, September
2000 (A-08-97-41003).
9
 SSA/OIG report Effectiveness of Internal Controls in the Modernized Enumeration System,
September 2000 (A-08-97-41003).


SSN Misuse: A Challenge for SSA                                                                 5
mailroom and periodically destroyed. An SSA Office of Management and Operations
Support staff member estimated that the number of returned cards ranges between
250,000 and 500,000 per year. Accordingly, in the pursuant audit report, we will make
recommendations, as necessary, to improve methods of accounting for returned SSN
cards in the future.

3. Evaluate How Well SSA Maintains Accurate Earnings Records For
   Individuals.
SSA has reported it is able to correctly post over 99 percent of all wage reports it
receives to the appropriate earner's record. However, approximately one percent of the
wages submitted by employers fail the name/SSN validation criteria within SSA’s
systems and are therefore posted to the Earnings Suspense File (ESF). Between 1937
and 1999, the ESF grew to about 227 million reports of individual earnings with a value
of about $333 billion. We have reported our concerns related to the ESF's impact on
benefit amounts and the added administrative costs related to correcting invalid
earnings information. In addition, the ESF is indicative of a nationwide problem of
potential fraud and misuse that not only affects SSA programs but transcends to other
Federal entities, such as the Internal Revenue Service (IRS) and INS.

In earlier reports, SSA OIG reported some of the weaknesses in the current earnings
reporting process, such as significant suspended wages, duplicate postings, and poor
controls over employer wage reporting. For example, we reported that SSA’s ESF
represents a major management challenge because it continues to grow in size each
year.10 SSA developed a Tactical Plan containing an overall strategy and several
individual projects designed to reduce the ESF’s rate of growth and size. However, the
changes called for in the Plan are long-term, and several factors, both internal and
external to SSA, hinder the efforts with the most potential to reduce the ESF’s size and
growth. Some of the internal factors hindering efforts to reduce the ESF’s size include:
(1) SSA has placed a higher priority on other automated systems developments and
(2) SSA has not linked available information in its data base to identify chronic
“problem” employers who continually submit annual wage reports with multiple errors.
External factors include other Federal agencies with separate yet related mandates,
such as the IRS' reluctance to sanction employers for submitting invalid wage data11
and INS' complicated employer procedures for verification of eligible employees.

In terms of duplicate postings, an earlier OIG audit found that the Master Earnings File
contained more than $8.3 billion in duplicate earnings postings.12 These earnings errors

10
  SSA/OIG report entitled The Social Security Administration's Earnings Suspense File Tactical Plan and
Efforts to Reduce the File's Growth and Size, February 2000 (A-03-97-31003).
11
  Under IRS code 26 U.S.C. §6721 (a), the IRS may charge a $50 penalty each time an employer does
not furnish an employee’s correct SSN on a wage report.
12
  Department of Health and Human Services OIG report entitled Controls Over Duplicate Postings of
Self-Employment Income to the Master Earnings Record, August 1993 (A-13-92-00228).



SSN Misuse: A Challenge for SSA                                                                     6
caused over $10.5 million in excess payments to about 31,800 beneficiaries. Another
OIG audit found that SSA did not maintain sufficient controls over the wage reporting
process to ensure employers were submitting quality earnings data.13 The audit noted
how 285 employers submitted erroneous wage reports, where more than 50 percent of
their wages were in error, for 3 years in a row without SSA taking any action, even
though more than $8.5 million in penalties could have been assessed. Another
3,428 employers submitted similar erroneous wage reports for 2 years in a row.

4. Determine Which SSA Programs and Operations Have the Most
   Incidences of SSN Misuse.
It is difficult to definitively conclude which SSA programs or operations have the most
incidences of SSN misuse since it is impossible for OIG to verify the legitimacy of every
allegation received. With limited staff and an overwhelming number of allegations,
OIG’s Office of Investigations (OI) prioritizes the cases it can feasibly examine. Our first
priority has traditionally been to investigate cases involving possible employee fraud.
Secondly, we attempt to examine the large volume of programmatic cases that
negatively impact Social Security trust funds. Accordingly, we are only able to provide
statistics based on the SSN misuse cases our investigators have closed. We
acknowledge that this representation may not be reflective of the total crimes that have
occurred. However, given our mandate of attempting to secure SSA’s trust fund dollars,
these figures reflect the cases our established priorities and current resource level
allowed us to pursue.

During the past 5 fiscal years, the percentage of the cases involving SSN misuse and
program fraud are as follows:

                                                                  Percent of Closed SSN
                                                                  Misuse Cases Involving
                     Program Category                              SSA Program Losses
 Title XVI – Aged Supplemental Security Income (SSI)                       41.6
 Title II – Disability                                                        25.9
 Title II – Retirement, Survivors Insurance (RSI)                             19.8
 Title XVI – Disability (SSI)                                                 11.0
 Concurrent (Title II and Title XVI)                                           1.5

Title XVI – Aged SSI is the program for persons 65 years of age or older who
demonstrate a financial need for assistance as mandated by law and program
requirements. As shown in the chart above, title XVI – Aged SSI cases accounted for
the majority of closed cases for which SSN misuse was also involved. Additionally, a
measurable percent of SSN misuse cases involved losses to the title II Disability and

13
 SSA/OIG report entitled Force Processing of Magnetic Media Wage Reports with Validation Problems,
May 2001 (A-03-99-31001).


SSN Misuse: A Challenge for SSA                                                                7
RSI programs. We have included an example case for each program category below to
provide an understanding of how SSN misuse impacted these cases.

Title XVI – Aged SSI          On May 21, 2001, before the honorable U.S. District
Recipient Used Three          Court Judge Robert J. Timlin, Ms. Jean M. Whiteley
Aliases to Collect            (84 years old) was sentenced to 6 months home
Benefits                      detention, 5 years probation, 60 hours of community
                              service, a $300 special assessment fee and ordered to
                              repay SSA $423,845.

The OIG initiated an investigation of Ms. Whiteley in September 1999, based on a
referral from an SSA Assistant District Manager (ADM). The ADM informed OIG that,
as a result of a joint project between SSA and the California Department of Health
Services, the Palm Springs SSA office determined Ms. Whiteley had fraudulently
collected SSA benefits under more than one identity. Additional investigation by the
OIG revealed that Ms. Whiteley had been receiving SSA Widows’ Insurance Benefits
(WIB) under the alias of Anna K. Whiteley since 1981, SSI benefits under the alias Ann
Jeanette Oliver since 1982 and SSI benefits under the alias of Jean L. Whiteley since
1987. The investigation also revealed that since 1988, Ms. Whiteley received SSI
benefits (aged) on her deceased husband’s fraudulent identity.

On November 9, 1999, OIG Special Agents executed a Federal search warrant at
Ms. Whiteley’s residence in Desert Hot Springs, California. Items seized pursuant to
the search warrant indicated that Ms. Whiteley used the aforementioned aliases to
fraudulently receive SSA WIB and SSI benefits. In addition, items seized indicated that
she used the aliases to fraudulently apply for Federal bankruptcies, California State
Renter’s Tax Credits, County Home Energy Assistance and Rural Housing Assistance
from the U.S. Department of Agriculture.

On January 28, 2000, a Federal Grand Jury returned a fourteen-count felony indictment
for Ms. Whiteley in U.S. District Court, Los Angeles, California. Ms. Whiteley was
indicted on twelve counts of 18 U.S.C. § 1343, “Fraud by wire, radio, or television.”
Additionally, she was indicted on two counts of 18 U.S.C. § 152, “Concealment of
assets; false oaths and claims; bribery.” Subsequently, she pled guilty to three counts
of the aforementioned.

The loss to SSA from her crimes totaled approximately $423,845. Additional losses to
the Federal government from fraudulent bankruptcy filings equal approximately
$160,000.00.

Title II Disability          On January 10, 2001, Mr. Anthony P. Coco was
Recipient Used Father’s      sentenced in Federal District Court by the Honorable
and Daughter’s SSNs to       Judge Clarence Newcomer to serve 5 months in prison
Conceal Work Activity        followed by 5 months home detention. Following his
                             release from prison, Mr. Coco will serve 3 years
                             probation. Additionally, Judge Newcomer ordered
Mr. Coco to repay $115,541 in restitution to SSA. Mr. Coco was further ordered to pay


SSN Misuse: A Challenge for SSA                                                     8
all costs of electronic monitoring related to his home detention. Mr. Coco voluntarily
surrendered himself to the U.S. Bureau of Prisons on January 29, 2001 to begin his
prison sentence.

Mr. Coco became entitled to receive title II disability benefits in 1985. However, from
1986 to 1999, Mr. Coco used his father's and daughter's SSNs to conceal his own work
activity while still collecting disability benefits under his own SSN.

                              On May 23, 2001, Mr. Peter Collins appeared in the
Title II RSI Recipient        U.S. District Court for the Northern District of Ohio for the
Used Deceased                 purpose of sentencing. Mr. Collins had previously pled
Brother’s Identity            guilty to one count of violating 18 U.S.C. § 641, “Public
                              money, property or records” in this same court. Judge
Peter Economus sentenced Mr. Collins to a period of 6 months' home confinement and
3 years' probation. Collins was also fined $1,100 and ordered to make restitution in the
amount of $28,243 to SSA.

This case was initiated when the North Olmsted, Ohio Police Department discovered
that Mr. Collins had two Ohio Driver Licenses listing two separate SSNs. One of the
SSNs was assigned to Mr. Collins and the other was assigned in the name of his
deceased brother who had died in 1943. SSA assigned the latter SSN in 1963, after the
brother’s death. SSA made RSI payments in the amount of $32,723 between 1993 and
1998 to Mr. Collins in the name of his deceased brother. Mr. Collins admitted to
fraudulently obtaining an SSN and title II RSI payments from SSA using his deceased
brother's identity. Mr. Collins was employed full-time while collecting these SSA
payments and earned substantial wages under his true SSN. It was later determined
that Mr. Collins had cashed $28,243 of the SSA checks. The remaining $4,480 had
been returned to SSA by the U.S. Postal Service who had been unable to deliver the
checks due to a change of address.

                              On April 13, 2001, Mr. David Melgoza-Solis, a Mexican
Title XVI Disability (SSI)
                              citizen, was sentenced to 6 months in custody of the
Recipient Commits
                              Bureau of Prisons and ordered to pay $200 in
Identity Theft
                              assessment fees in violation of one count of 42 U.S.C. §
                              1383a, “Fraudulent acts; penalties; restitution” and one
count of 42 U.S.C. § 1542 “Transfer of funds from other Federal agencies to Secretary
of Housing and Urban Development.” Mr. Melgoza-Solis was also sentenced to
supervised release for a term of 3 years and will be subject to an INS Deportation
Hearing. SSA waived restitution of the $80,485 fraud loss to the SSI program.
Since 1975, Mr. Melgoza-Solis had been fraudulently using the identity of Mr. Fred
Gabes Cruz with a counterfeit New Mexico Certificate of Birth. In February 1989,
Mr. Melgoza-Solis applied for and received SSI benefits in the name of Fred Gabes
Cruz. SSI benefits continued through December 2000. The total SSI overpayment due
to fraudulent identity information is $80,485. Mr. Melgoza-Solis was subsequently
arrested and charged with violating 42 U.S.C. § 1542 and 42 U.S.C. § 1383a. On
January 16, 2001 Mr. Melgoza-Solis pled guilty to both counts.


SSN Misuse: A Challenge for SSA                                                          9
5. For the Last Five (5) Fiscal Years, State the Number of SSA
   Employee Cases that OIG Investigated Where SSA Employees
   Disclosed, Sold, or Released SSN Information. Also, Describe the
   Nature and Resulting Criminal or Administrative Action of Each
   Case.
In the past 5 fiscal years, OIG investigated 55 cases involving 61 employees. In
Appendix A of this report, we present, by case and fiscal year, the nature of each
allegation, the criminal actions including sentences and restitution ordered, and SSA
administrative actions taken. Generally, the allegations involved submission/processing
of false SSN applications, selling legitimate SSNs, selling counterfeit SSN cards and
general SSN Misuse. A majority of these cases resulted in criminal convictions.

6. Suggest How SSA Can Improve How It Provides Information to the
   Public on the Proper Use and Dissemination of the SSN.
We believe that public awareness is one of the most effective tools in fighting the crime
of identity fraud. To its credit, SSA has attempted to increase public awareness in
several different manners, including issuing a publication related to the subject,
providing information on the SSA website, holding “town hall” meetings with various
entities and working with the Federal Trade Commission in developing information for
the public. In addition to these measures, we believe the following suggestions may
assist SSA in its efforts to inform the public of the proper use and dissemination of
SSNs.

•   The SSA website is an excellent tool for educating the public about the proper use of
    the SSN. Although already being utilized, SSA’s OIG and Communications Office
    could team up to provide additional information. For example, articles could be
    posted on the site in the form of interesting “Tips” and “Tactics,” which would be
    designed to educate and remind the general public about the potential dangers of
    sharing one’s SSN with non-governmental and suspicious entities.

•   SSA could include informational pamphlets when issuing SSN cards and retirement
    and benefits statements to the public. These pamphlets could remind the public
    about SSN misuse and provide them with the OIG Fraud Hotline Toll-Free Number.

•   Additional “Identity Theft Awareness Workshops” or “Town Hall Meetings,” could be
    instituted in conjunction with organizations whose clients are the elderly and/or the
    disabled.

•   Public Service Announcements such as advertisements on radio, television, and in
    leading senior citizens and national publications would be helpful in reaching the
    public-at-large.




SSN Misuse: A Challenge for SSA                                                        10
•   SSA could distribute informational literature to commercial, governmental and non-
    profit entities that outlines (1) the authorized uses of SSNs and (2) the organizations’
    responsibilities for protecting this sensitive personal information.

7. Evaluate SSA’s Efforts to Work with Other Federal Agencies,
   Particularly the Internal Revenue Service and the Immigration and
   Naturalization Service, in Identifying and Preventing SSN Misuse.
We are aware that SSA has worked successfully with certain Federal agencies in its
efforts to identify and combat SSN misuse. For example, SSA and SSA’s OIG
frequently collaborate with the Federal Trade Commission, which is the Federal agency
serving as the centralized complaint and consumer education service provider for
victims of identity theft. Additionally, SSA, IRS, and INS have had some meaningful
cooperative efforts to address this issue.

For example, as a result of an IRS and SSA data match, IRS has begun to notify
taxpayers and disallow some exemptions and/or deductions when the name and SSN of
an individual listed on a tax return does not match SSA’s records. In such cases, an
individual who has been the victim of identity theft is alerted to the discrepant
information and, if necessary, can begin to take corrective measures.

SSA has also been working with INS and the State Department to implement an
“Enumeration at Entry” program for noncitizens who wish, and are eligible, to receive an
SSN. With this program, INS will gather necessary information for noncitizens qualified
to receive an SSN during the applicants’ entry interviews. We are certainly encouraged
by this concept. In fact, we believe that, once fully implemented, the program will be an
important step in preventing the improper attainment of SSNs by noncitizens who
present counterfeit immigration documents at SSA field offices. However, we have
some concerns regarding the length of time the implementation of this initiative is
taking. Given recent national tragedies, we believe full implementation of the
Enumeration at Entry program should be given priority and expedited by the Agencies.

Other efforts that SSA has made to coordinate with IRS and INS have not always been
successful. The Agency relies on other Federal agencies to assist in combating SSN
misuse. Specifically, as provided by law, SSA must rely on the IRS to enforce penalties
for inaccurate wage reporting and the INS to enforce immigration laws. Unfortunately,
the IRS has been reluctant to apply penalties and SSA and the INS have had limited
and protracted collaboration on the issue.

IRS RELUCTANT TO APPLY PENALTIES

In a previous OIG audit, SSA senior staff stated that employers have no incentive to
submit accurate annual wage reports because the IRS rarely enforces existing




SSN Misuse: A Challenge for SSA                                                         11
penalties.14 SSA staff believed applying penalties would have a rippling effect on
employers who consistently submit wage reports for employees whose names and
SSNs do not match SSA’s records. Although SSA is primarily only interested in
penalizing the most egregious employers, IRS staff expressed concern with the
application of even these penalties. IRS senior staff members believe they and SSA
would have a difficult time determining whether an employer exercised appropriate
diligence in obtaining the necessary information from employees. SSA representatives,
however, believe the Agency could provide the IRS with sufficient evidence to show an
employer knew or should have known its employees’ SSNs were incorrect

Despite the IRS’ concerns, the two Agencies held discussions to explore the
enforcement of an existing penalty provision ($50 per incorrect wage report) for
employers who repeatedly submit erroneous name and/or SSN information. To
implement the penalty, SSA and IRS agreed the Agencies must (1) jointly define the
circumstances for applying penalties, (2) identify information needed from SSA for the
IRS to support applying penalties, and (3) develop the proposed data flow and
procedures to be followed.

In Calendar Year 2000, SSA provided a list of 100 of the most egregious employers to
the IRS. These employers represented those with the largest number of name/SSN
match failures in consecutive years. IRS expressed interest in the listing but, to date,
has not assessed penalties.

LIMITED COLLABORATION BETWEEN SSA AND THE INS
TO ADDRESS GROWTH OF ESF

During a previous audit, both SSA and INS senior staff told us collaboration between
the two Agencies has been limited.15 In SSA’s December 1997 version of its ESF
Tactical Plan, the Agency included an initiative to develop a better understanding of the
extent that immigration issues may contribute to name and SSN mismatches and the
ESF’s growth. The initiative was to involve SSA working with the INS to formulate and
conduct a limited review of employers who (1) employ large number of immigrants and
(2) experience high name and SSN error rates in their annual wage reporting.
According to SSA representatives, because of privacy and disclosure limitations, the
Agency determined it could not share such information with the INS. Therefore, SSA
did not include this project in subsequent versions of the ESF Tactical Plan.




14
  SSA/OIG report entitled Obstacles to Reducing Social Security Number Misuse in the Agriculture
Industry, January 2001 (A-08-99-41004).
15
  SSA/OIG report entitled Obstacles to Reducing Social Security Number Misuse in the Agriculture
Industry, January 2001 (A-08-99-41004).


SSN Misuse: A Challenge for SSA                                                                    12
8. Recommend Methods to Improve SSA’s Processes And
   Procedures to Prevent Future SSN Misuse.
In addition to the items discussed in response to previous questions, we also believe
SSA should expand its data matching activities with other Federal, State, and local
government entities and explore other innovative technologies such as biometrics.
Data matching also known as computer matching, has three main goals: (1) to
determine eligibility for Federal benefits; (2) to determine compliance with Federal
benefit program requirements; and (3) to effectuate recovery of improper payment or
delinquent debts from current or former beneficiaries of Federal benefits.

The Computer Matching and Privacy Protection Act of 1988 (CMPPA), (Public Law 100-
503) requires Federal agencies to enter into written agreements with other agencies or
non-Federal entities before disclosing records for use in computer matching programs.
The law also specifies areas to be addressed in such agreements, including justification
for matching, notifying individuals (including Federal employees) whose records are to
be matched, procedures for retention and destruction of data after matching, and
prohibitions on disclosure of records and the compilation of data. CMPPA also requires
that a copy of each agreement be transmitted to specified congressional committees
and be available to the public upon request.

SSA has a number of matching agreements in place to share information with State
agencies. For example, SSA has agreements with Bureaus of Vital Statistics to identify
unreported marriages and divorces for title II and XVI beneficiaries. Based on recent
audit results, SSA could benefit from expanding computer matches with States and
other Federal agencies to include individuals who had benefits terminated due to
confirmed or suspected fraud.16

Biometrics is the science of measuring unique physical characteristics, such as
fingerprints, for purposes of identification. As such, Biometric technologies offers a
potentially foolproof means of verifying an individual’s identity and, if used during the
enumeration and benefit application processes, can detect and prevent applicants’
attempts to improperly obtain benefits and services. This technology is particularly
important, given the expanded use of the SSN as a national identifier.

Our previous audit work indicates that 11 States have implemented or planned to adopt
Biometric technologies in their social service programs.17 As a result of these
programs, States have reported significant monetary savings. Based on this audit work,
we believe SSA could benefit from pursuing matching agreements with these States to
identify individuals who also may be inappropriately receiving SSA benefit payments.


16
  SSA/OIG report The Social Security Administration is Pursuing Matching Agreements with New York
and Other States Using Biometric Technologies, January 2000 (A-08-98-41007).
17
  SSA/OIG report The Social Security Administration is Pursuing Matching Agreements with New York
and Other States Using Biometric Technologies, January 2000 (A-08-98-41007).


SSN Misuse: A Challenge for SSA                                                                 13
While the use of Biometrics may present privacy concerns, given the tragic events that
have recently affected our Nation’s security, we must seriously weigh these concerns
against the need for protecting our critical assets. Similarly, SSA has a duty to
Congress and the American public to balance such concerns with its role to ensure the
integrity of the SSN and its programs.

9. Please Provide the Current Data Matching Initiatives SSA has
   Underway to Detect and/or Prevent SSA Overpayments to
   Individuals the Agency Determines are Residing in Nursing Homes
   and Prisons. Also, Comment on the Effectiveness of these Data
   Matches and Describe any Further Initiatives that Might Improve
   this Process. Further, Itemize for the Last Five (5) Years the
   Amount of SSA Overpayments Made to Individuals in Nursing
   Homes and Prisons because SSA was Unaware that Their Care was
   Paid by Medicare. Please Itemize the Amounts by Year.
SSA has a number of data matching initiatives underway to detect and/or prevent
overpayments to individuals residing in nursing homes and prisons. Specifically, SSA
matches its payment records with nursing home data from the Centers for Medicare and
Medicaid Services (CMS),18 as well as with Federal, State, and local prisons. Specific
initiatives are described below.

NURSING HOMES

In December 1998, SSA initiated a computer match with CMS to detect instances in
which SSI recipients, institutionalized in nursing homes, were being overpaid.19 This
match, which covers all the States, was also conducted in March 1999 and again in
September 1999. Then in FY 2000, the match was performed on a monthly basis and it
continues to be performed today.

In October 2000, SSA’s Office of Quality Assurance and Performance Assessment
(OQA) issued a report on its assessment of SSA’s match with nursing home data. OQA
found that in FY 1999, the data match between SSA and CMS identified overpayment
benefits of $27 million that could have been either recovered or prevented at a cost of
$6.8 million.

OQA also found that nursing home data received from CMS was not sufficiently
accurate for SSA to institute automatic payment changes. Specifically, some of CMS’
data fields (such as length of stay and source of payment) contained missing or
inaccurate data. As such, OQA concluded that CMS needs to improve the reliability of

18
     CMS was formerly known as the Health Care Financing Administration (HCFA).
19
  Prior to 1998, SSA matched its payment records with HCFA nursing home data. However, the HCFA
data was limited since it did not contain all the States. SSA estimated program savings from this limited
match of $3.8 million per year.


SSN Misuse: A Challenge for SSA                                                                        14
its data before SSA could use it to suspend payments without verification. In FY 2002,
OQA is scheduled to conduct a follow-up review to determine the accuracy of the CMS
data and the approximate time for SSA field offices to process a case resulting from the
data match.

OIG does not have a tracking system in place to capture the amount of SSI
overpayments resulting from individuals living in nursing homes. Therefore, we are
unable to provide statistics for the past 5 years, and hence defer this question to SSA.

PRISONERS

SSA receives prisoner data from approximately 5,500 Federal, State, county, and local
correctional agencies. This data, which accounts for over 99 percent of the prisoner
population in the United States, is matched against SSA payment records in order to
identify, prevent and/or recover overpayments to prisoners. If the data matching
identifies benefit payments paid to a prisoner, the appropriate SSA office is notified and
staff verify the person’s identity and determine whether payments should be stopped.
Once payments cease, any overpayment amounts are computed and an account is
established on the individual’s record to control the return of amounts overpaid.

SSA’s Chief Actuary estimated a cost avoidance of $125 million to be realized
semiannually from 1995 to 2001. Since the OIG does not have a system in place to
track overpayments to prisoners, we defer to SSA to provide statistics for the past
5 years.

In 1996 and 1997, the OIG completed two audits pertaining to SSA’s prisoner matching
operations.20 Specifically, we reported the following.

•    SSA was only achieving limited success in obtaining prisoner information and using
     it to prohibit benefit payments. Specifically, we estimated overpayments to prisoners
     in Federal, State, and county or local correctional facilities in the amount of
     $48.8 million. These overpayments were due to the delays in receiving information
     from correctional facilities. Our report included recommendations to: (1) make
     current procedures for obtaining prisoner information more effective; (2) explore
     alternatives to the current system in place for obtaining prisoner information; and
     (3) make the administrative processes associated with prisoner information more
     effective.

•    SSA was not always detecting and stopping benefit payments to prisoners due to
     control weaknesses in its prisoner record matching program and in its prisoner alert
     procedures. Also, we found that SSA had limited success in attempting to recover
     overpayments made to prisoners. Our report included recommendations for:
     (1) improving the matching procedures for identifying prisoners receiving benefits;

20
   SSA/OIG reports entitled Effectiveness in Obtaining Records to Identify Prisoners, May 1996 (A-01-94-
02004) and Effectiveness of the Social Security Administration’s Procedures to Process Prisoner
Information, Suspend Payments and Collect Overpayments, June 1997 (A-01-96-61083).


SSN Misuse: A Challenge for SSA                                                                     15
   (2) processing prisoner alerts more effectively; and (3) improving the collection of
   overpayments from prisoners.

In FY 2002, we are initiating a follow-up review to our 1996 and 1997 audit reports. We
will assess SSA’s efforts to implement the recommendations made in these two reports
and identify any further areas for improving prisoner data matching operations. Based
on preliminary work started in FY 2001, SSA has made great strides in improving the
detection and prevention of overpayments to prisoners since our work in 1996 and
1997. Once our follow-up work is completed in FY 2002/2003, we will comment in detail
on the effectiveness of SSA’s prisoner operations to prevent overpayments and
possible initiatives, if necessary, for further improvement.




SSN Misuse: A Challenge for SSA                                                           16
                                                             Conclusion
We recognize that the issue of SSN misuse is complex and impacts many public and
private programs. With the Internet as a catalyst, SSN misuse and identity fraud have
soared to new heights, partially as a result of the ease in which individuals can access
personal information and false documents on-line. To its credit, SSA has made strides
in improving systems and processes in the fight against these abuses. However, we
believe more needs to be done. We understand the need to provide timely, world class
customer service, but it is important to strike a balance between expediency and
stewardship responsibilities.

Recently, we provided the Acting Commissioner of Social Security with a list of prior
audit recommendations that the Agency either disagreed with or had not yet
implemented. In light of recent events, the Acting Commissioner planned to review
these recommendations to determine whether any should be reconsidered and/or
expedited. We are encouraged by this action and hope SSA will reconsider
recommendations reiterated in this report that will serve to improve the integrity of the
SSN.




SSN Misuse: A Challenge for SSA                                                         17
                           Appendices
Appendix A – Scope and Methodology
Appendix B – Employee Case Statistics for Past Five Fiscal Years
Appendix C – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Scope and Methodology
Much of our work was based on published reports from the past 2 years. We performed
report review work in Birmingham, Alabama. Analytical work on matching initiatives and
overpayments was performed in Boston, Massachusetts. Also, other work, including
interviews and observations regarding undeliverable SSNs and gathering of
investigative case data was performed at SSA Headquarters in Baltimore, Maryland.
We completed our field work between August 2001 and September 2001.
                                                                 Appendix B
  EMPLOYEE CASE STATISTICS FOR PAST FIVE
              FISCAL YEARS
                               Fiscal Year 1997
 Nature of     Criminal                               Restitution Administrative
                                 Sentencings
Allegations     Action                                 Ordered      Actions
   False
                                                                   Termination
 Application
Selling SSNs     PTD                                               Termination
                                   04/29/97
                            6 months Incarceration,                Termination
Selling SSNs   Conviction
                              2 years & 6 months
                                  Probation
                                                                   Termination
                                   05/02/97
Selling SSNs     Plea
                               3 years Probation
                                   07/03/97            $20,239     Termination
Selling SSNs     Plea
                               3 years Probation      (NONSSA)
                                   04/30/97
Selling SSNs   Conviction                                          Suspension
                               2 years Probation
SSN Misuse                                                         Suspension

SSN = Social Security Number
PTD = Pre-Trial Diversion




                                     B-1
                                Fiscal Year 1998
   Nature of       Criminal                               Restitution   Administrative
                                    Sentencings
  Allegations       Action                                 Ordered        Actions
                                     07/01/1998
False Application/                 1 year 3 months
                   Conviction                                              Retired
    SSN Card                    Incarceration, 2 years
                                      Probation
False Application/                   04/14/1999
                   Conviction                                             Resigned
    SSN Card                      2 years Probation
                                      06/24/1998           $306,727
  Selling SSNs    Conviction                                              Resigned
                                1 year, 1 day Probation   (NONSSA)
  SSN Misuse                                                              Resigned
                                      08/04/1997
  Selling SSNs    Conviction                                             Termination
                                  3 years Probation
                                      07/14/1997
                                      10 months.           $10,000
  Selling SSNs    Conviction                                             Termination
                                Incarceration, 2 years    (NONSSA)
                                       Probation
                                      02/09/1998
  SSN Misuse      Conviction       3 years 2 months                      Termination
                                     Incarceration
                                      09/17/1998
                                                           $138,186
  Selling SSNs    Conviction     1 year Incarceration,                   Termination
                                                          (NONSSA)
                                  3 years Probation
                                      05/18/1998
  SSN Misuse      Conviction                                              Resigned
                                   1 year Probation
  SSN Misuse                                                             Termination
                                     03/10/1998
  Selling SSNs    Conviction                                              Resigned
                                  5 years Probation
                                   07/29/1998
  SSN Misuse      Conviction 4 months Incarceration,                      Resigned
                                4 years Probation
                  Convictions
                                     02/25/1998            $174,312
  SSN Misuse         (two                                                Termination
                                  5 years Probation        $20,993
                  employees)




                                         B-2
                             Fiscal Year 1999

 Nature of     Criminal                                Restitution Administrative
                                 Sentencings
Allegations     Action                                  Ordered      Actions
  False                           12/18/1998
                                                         $8,158
Application/   Conviction   6 months. Incarceration,                Termination
                                                       (NONSSA)
SSN Card                       3 years Probation
  False
                                  02/16/1999
Application/   Conviction                                            Resigned
                               5 years Probation
SSN Card
                         03/14/1997 4 years Probation
                                                                     Resigned
                         07/10/1997 3 years Probation
                                                                    Suspension
               Convicted 04/16/1998 5 years Probation
                                                                     Resigned
SSN Misuse         6     02/22/1999 1 year Probation
                                                                     Resigned
               employees 03/03/1999 2 years Probation
                                                                    Suspension
                         06/16/1999 6 months Incarceration,
                                                                    Suspension
                           2 years Probation
SSN Misuse                                                           Resigned
                                  02/28/1998
SSN Misuse     Conviction                                           Termination
                               2 years Probation
                                  06/30/1998            $264,781
SSN Misuse     Conviction                                           Termination
                               3 years Probation       (NONSSA)
                                  02/10/1999
SSN Misuse     Conviction   6 months Incarceration,                 Termination
                               2 years Probation




                                       B-3
                                  Fiscal Year 2000
 Nature of     Criminal                                   Restitution   Administrative
                                    Sentencings
Allegations     Action                                     Ordered        Actions
                                   10/27/1999
SSN Misuse     Conviction                                                  Resigned
                               2 years Probation
                                   01/27/2000
Selling SSNs   Conviction 1 year Incarceration, 3 years   $64,582 SSA      Resigned
                                    Probation
                                   12/01/1999                            Leave Without
SSN Misuse     Conviction
                               3 years Probation                             Pay
SSN Misuse                                                                 Resigned
                                      07/28/2000
Selling SSNs   Conviction       7 months Incarceration,                   Termination
                                   2 years Probation
                                      03/06/2000
Selling SSNs   Conviction      4 months Home detention,                    Resigned
                                  3 years Probation

                                      03/27/2000
Selling SSNs   Conviction      6 months Home detention,                    Resigned
                                  3 years Probation
                                      03/06/2000
                                                            $545,000
Selling SSNs   Conviction       2 months Incarceration,                    Resigned
                                                           (NONSSA)
                                   3 years Probation
                                     02/14/2000
                                                            $32,577
Selling SSNs   Conviction      14 months Incarceration,                    Resigned
                                                           (NONSSA)
                                  3 years Probation

Selling SSNs                                                               Resigned
                                     04/20/2000
SSN Misuse     Conviction                                                 Termination
                                  3 years Probation

SSN Misuse     Illegal Alien                                               Resigned

                                      03/06/2000
                                4 months Incarceration,
SSN Misuse     Conviction                                                 Termination
                               4 months Home detention,
                                   3 years Probation
                                      01/28/2000
  Misuse                                                                   Resigned
               Conviction       6 months Incarceration,
 Computer
                                   3 years Probation
SSN Misuse                                                                 Resigned
  Misuse                             02/08/2000             $200,000
               Conviction                                                  Resigned
 Computer                         3 years Probation        (NONSSA)




                                             B-4
                                Fiscal Year 2001
  Nature of       Criminal                               Restitution   Administrative
                                    Sentencings
 Allegations       Action                                 Ordered        Actions
                                     05/09/2001
                                  12 months Home          $10,000
  SSN Fraud       Conviction                                             Resigned
                                confinement, 5 years     (NONSSA)
                                      Probation
                                     12/21/2000
    False
                  Conviction   6 months Incarceration,                  Termination
  Application
                                  2 years Probation

 Selling SSNs                                                            Resigned
                                      9/15/2000
    False                                                 $435,895       Resigned
                  Conviction   6 months Incarceration,
  Application                                            (NONSSA)
                                  3 years Probation
 Selling SSNs                                                            Resigned
                                   03/30/2001
 SSN Misuse       Conviction 27 months Incarceration,                    Resigned
                                3 years Probation
                                 06/08/2001
                                                          $52,718
Counterfeit SSN   Plea     6 months. Incarceration,                       Retired
                                                         (NONSSA)
                              2 years probation
                                 01/17/2001
  SSN Fraud     Conviction 15 months Incarceration,                      Resigned
                             36 months Probation
                                     10/31/2000
                                                          $350,000
  SSN Fraud       Conviction   6 months Incarceration,                   Resigned
                                                         (NONSSA)
                                  3 years Probation
                                    05/01/2001
  SSN Fraud       Conviction                                             Resigned
                               18 months Incarceration

 SSN Misuse         PTD                                                 Suspension

                                     07/27/2001
 Identity Theft   Conviction                                             Resigned
                                  3 years Probation




                                          B-5
                                                                        Appendix C
OIG Contacts and Staff Acknowledgments

OIG Contacts
   Kim Byrd, Acting Director, Operations Audit Division (205) 801-1605

Acknowledgments
In addition to those named above:

   Kathy Youngblood, Senior Auditor

   Walter Bayer, Deputy Director

   Judith Oliviera, Senior Auditor

   Katie Hallock, Auditor

   Tom Sipes, Special Agent-in-Charge

   Tim DeHoff, Investigator


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-22030.
